<html>
<title> - THE BEST AND WORST PLACES TO WORK IN THE FEDERAL GOVERNMENT</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]







      THE BEST AND WORST PLACES TO WORK IN THE FEDERAL GOVERNMENT

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         GOVERNMENT OPERATIONS

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 6, 2017

                               __________

                            Serial No. 115-8

                               __________

Printed for the use of the Committee on Oversight and Government Reform



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-749 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
  
























              Committee on Oversight and Government Reform

                     Jason Chaffetz, Utah, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Trey Gowdy, South Carolina           Jim Cooper, Tennessee
Blake Farenthold, Texas              Gerald E. Connolly, Virginia
Virginia Foxx, North Carolina        Robin L. Kelly, Illinois
Thomas Massie, Kentucky              Brenda L. Lawrence, Michigan
Mark Meadows, North Carolina         Bonnie Watson Coleman, New Jersey
Ron DeSantis, Florida                Stacey E. Plaskett, Virgin Islands
Dennis A. Ross, Florida              Val Butler Demings, Florida
Mark Walker, North Carolina          Raja Krishnamoorthi, Illinois
Rod Blum, Iowa                       Jamie Raskin, Maryland
Jody B. Hice, Georgia                Peter Welch, Vermont
Steve Russell, Oklahoma              Matt Cartwright, Pennsylvania
Glenn Grothman, Wisconsin            Mark DeSaulnier, California
Will Hurd, Texas                     John Sarbanes, Maryland
Gary J. Palmer, Alabama
James Comer, Kentucky
Paul Mitchell, Michigan

                   Jonathan Skladany, Staff Director
                  Rebecca Edgar, Deputy Staff Director
                    William McKenna, General Counsel
                 Kevin Ortiz, Professional Staff Member
                         Kiley Bidelman, Clerk
                 David Rapallo, Minority Staff Director

                                 ------                                

                 Subcommittee on Government Operations

                 Mark Meadows, North Carolina, Chairman
Jody B. Hice, Georgia, Vice Chair    Gerald E. Connolly, Virginia, 
Jim Jordan, Ohio                         Ranking Minority Member
Mark Sanford, South Carolina         Carolyn B. Maloney, New York
Thomas Massie, Kentucky              Eleanor Holmes Norton, District of 
Ron DeSantis, Florida                    Columbia
Dennis A. Ross, Florida              Wm. Lacy Clay, Missouri
Rod Blum, Iowa                       Brenda L. Lawrence, Michigan
                                     Bonnie Watson Coleman, New Jersey
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 6, 2017....................................     1

                               WITNESSES

Ms. Roberta Jeanquart, Director of the Office of Human Resources 
  Management, Chief Human Capital Officer, U.S. Department 
  ofAgriculture
    Oral Statement...............................................     2
    Written Statement............................................     5
Ms. Lacey Dingman, Director of the Office of Human Resources, 
  Chief Human Capital Officer, U.S. Securities and Exchange 
  Commission
    Oral Statement...............................................     8
    Written Statement............................................    10
Ms. Angela Bailey, Chief Human Capital Officer, U.S. Department 
  of Homeland Security
    Oral Statement...............................................    14
    Written Statement............................................    17
Mr. Lee Gardner, Managing Director, US. Surface Transportation 
  Board
    Oral Statement...............................................    20
    Written Statement............................................    22
Ms. Veronica Villalobos, Principal Deputy Associate Director, 
  Employee Services, U.S. Office of Personnel Management, Acting 
  Executive Director, Chief Human Capital Officers Council
    Oral Statement...............................................    26
    Written Statement............................................    28
Mr. Max Stier, President and CEO, Partnership for Public Service
    Oral Statement...............................................    31
    Written Statement............................................    34

                                APPENDIX

Opening Statement of Subcommittee Chairman Mark Meadows..........    58
Statement for the Record of The National Treasury Employees 
  Union, submitted by Mr. Connolly...............................    59
Leadership Engagement Plan submitted by the Surface 
  Transportation Board at the request of Chairman Mark Meadows...    65

 
      THE BEST AND WORST PLACES TO WORK IN THE FEDERAL GOVERNMENT

                              ----------                              


                        Thursday, April 6, 2017

                  House of Representatives,
             Subcommittee on Government Operations,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 10:01 a.m., in 
Room 2154, Rayburn House Office Building, Hon. Mark Meadows 
[chairman of the subcommittee] presiding.
    Present: Representatives Meadows, Jordan, Blum, and 
Connolly.
    Mr. Meadows. The Subcommittee on Government Operations will 
come to order. And without objection, the chair is authorized 
to declare a recess at any time.
    Welcome to the, what this would be, our third edition of 
the best and worst places to work in the Federal Government. I 
might add that it was the director of the Department of 
Homeland Security that originally encouraged us, along with 
Max, to change the name of this from the worst places to work 
to the best places to work. And so I acknowledge that we are 
trying to emphasize on what is happening in a good manner, not 
just in a poor manner, as we move forward.
    And this hearing hopefully will provide a platform to 
closely examine what the Federal employee engagement and 
satisfaction levels are. The data being examined today comes 
from the 2016 Federal Employee Viewpoint Survey, which was 
taken by the Federal employees between April and June of last 
year.
    And after several years of decreasing scores, I'm pleased 
to see that a governmentwide engagement scores continue to 
trend positive for the second year in a row. For our hearing 
purposes today, witnesses will come from agencies who have 
shown either a great improvement or a large decrease in their 
scores.
    The U.S. Department of Agriculture is the most improved 
large agency, and while the Securities and Exchange Commission 
is the most improved mid-sized agency. Congratulations on your 
success. We look forward to learning more from each of you.
    We also welcome the Department of Homeland Security, which 
should be commended for finally reversing that negative trend, 
Ms. Bailey, in the negative momentum and posting the second-
most improved employee engagement score for large agencies. 
However, there's a lot of work, as we would acknowledge, that 
remains. DHS has ranked last among large agencies in employee 
engagement, and we look forward to hearing from you on what 
additional steps could be taken to foster more positive 
momentum.
    The Surface Transportation Board experienced the steepest 
decrease of any agency in the employee engagement and saw 
employee satisfaction scores plummet, so I'm curious to learn 
what steps the agencies will take to stem the bleeding and the 
trend that is going in the wrong area.
    And finally, the Office of Personnel Management and the 
partnership are also here to offer their insights on the 2016 
Federal Employee Viewpoint Surveys. I welcome all of our 
witnesses and look forward to learning more from you.
    Mr. Meadows. As the ranking member will be making his way 
here, when he gets here, we'll allow him to go ahead and do his 
opening statement.
    I would hold the record open for 5 legislative days for any 
member wishing to submit a written statement.
    We'll now recognize our panel of witnesses. I'm pleased to 
welcome Ms. Roberta Jeanquart, director of the Office of Human 
Resources Management and the chief human capital officer for 
the United States Department of Agriculture. Welcome. Ms. Lacey 
Dingman, director of Office of Human Resources and chief human 
capital officer for United States Secret Service--I mean, 
Secret Service--Securities and Exchange Commission; Ms. Angela 
Bailey, chief human capital officer for the U.S. Department of 
Homeland Security; Mr. Lee Gardner, managing director for the 
United States Surface Transportation Board; and Ms. Veronica 
Villalobos, principal deputy associate director of the employee 
services at the United States Office of Personnel Management 
and acting executive director of the Chief Human Capital 
Officers Council; and my friend, Mr. Max Stier, president and 
CEO of the Partnership for Public Service. Welcome to you all.
    And pursuant to committee rules, we would ask that all 
witnesses be sworn in before they testify, so if you would 
please rise and raise your right hand.
    Do you solemnly swear or affirm that the testimony you're 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    Thank you. Please be seated.
    Let the record reflect that all witnesses answered in the 
affirmative.
    And in order to allow time for discussion, we would 
appreciate if you would limit your oral testimony to 5 minutes; 
however, your entire written statement will be made part of the 
record. And so we will now recognize you for 5 minutes.

                       WITNESS STATEMENTS

                 STATEMENT OF ROBERTA JEANQUART

    Ms. Jeanquart. Thank you, Mr. Chairman.
    Mr. Meadows. And you need to hit the little button there.
    Ms. Jeanquart. Sorry. Is that----
    Mr. Meadows. That's----
    Ms. Jeanquart. Okay. Thank you.
    In 2016, USDA was the most improved large agency moving 
from 16th place in 2013 to a tie for 9th place in the 
Partnership for Public Service's best places to work rankings.
    Getting to number nine was a multiyear effort. We started 
out with USDA setting a target in our strategic plan to achieve 
a top 10 ranking by 2018. We additionally set goals to achieve 
a 70 percent participation rate in the survey, a 68 percent 
positive response on the employee engagement index, and a 65 
percent positive response on the global satisfaction index.
    We used five key strategies to drive the improvements at 
USDA, those included effective communication, employee 
development, performance management, support for diversity and 
inclusion, and worklife flexibilities.
    With regard to communication, which was our most important 
strategy, we asked leaders, managers, and supervisors to 
communicate more frequently with their employees. We encouraged 
members to hold--our leaders to hold townhall meetings, brown 
bag sessions, and informal visits.
    We asked that agency Employee Advisory Councils be set up 
to get input and empower employees to take action on workplace 
improvements. As a result of these listening sessions, action 
plans were created in each of the subcomponent organizations, 
and those--results of those action plans and progress on the 
action plans were reported to employees.
    Our second strategy was on employee development, and that 
was identified as a need in one of the listening--in some of 
the listening sessions. Employees were all given the 
opportunity to have, at USDA, an individual development plan, 
and that is a commitment that we make to the growth and 
development of our future leaders and all employees.
    When we started, we only had about 30 percent of employees 
with IDPs. By 2016, over 86 percent of our employees had IDPs. 
And to further contribute to their development, we created a 
mentoring strategy, and that mentoring strategy included 
individuals that were representative of our leaders, our 
executives, our managers, our supervisors who supported those 
employees through mentoring. We also created a 360-degree 
assessment so that managers, supervisors, and executives could 
all get feedback from their employees, their stakeholders, 
their peers, and their leaders.
    Our third strategy that contributed to our success was 
performance management. We made sure that performance plans for 
every employee linked the organization's mission to--so that 
each person could see how they contributed to strategic goals. 
We also incorporated employee engagement in the performance 
plans of supervisors, managers, and executives so that their 
progress, or lack thereof, could be used in the performance 
appraisal process at the end of the year.
    We also, in order to track all these efforts, we 
established a USDA-wide employee engagement program manager who 
works with representatives from each of our subcomponent 
agencies to discuss progress, identify best practices, address 
challenges and barriers, and share successful strategies for 
improvement.
    We asked each of our agencies to report monthly on their 
progress towards our employee engagement goals, and we're able 
to report any challenges we see or major progress to all 
leadership in the organization. We're also able to support 
those organizations where we see that don't have the progress 
that we'd like to--we'd like to see.
    So in summary, I'd say that we've not only achieved our 
goal to be in the top 10 best places to work ahead of schedule, 
but we've also increased our results in the ten workplace 
categories. For USDA, we've made a business case that engaged 
employees are more productive employees. We know that we've 
made great progress, we know there's more progress to be made, 
and we look forward to this year's survey.
    Thank you.
    [Prepared statement of Ms. Jeanquart follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
    Mr. Meadows. Thank you. And if you would thank all the 
employees at the Department of Agriculture for their service to 
this country. A lot of times Federal employees get beat up in 
the debates that happen here on Capitol Hill, and it's very 
important that they hear this message loud and clear, that 
they're appreciated not only by the American people but by 
members of both parties for their service to the country. Thank 
you.
    Ms. Jeanquart. Thank you.
    Mr. Meadows. Ms. Dingman, you're recognized for 5 minutes.

                   STATEMENT OF LACEY DINGMAN

    Ms. Dingman. Thank you.
    Chairman Meadows and members of the subcommittee, thank you 
for inviting me to speak today regarding the U.S. Securities 
and Exchange Commission's Federal Employee Viewpoint Survey 
results and the improved rankings of best places to work by the 
Partnership for Public Service.
    I am Lacey Dingman, the SEC's chief human capital officer, 
and I am honored to have the opportunity to speak to you about 
the SEC's efforts over the past 5 years to improve employee 
engagement. We are very pleased by the SEC's improved employee 
engagement scores as reflected in the most recent survey 
results, and the recognition we received from the Partnership 
for Public Service for being the most improved of any mid-sized 
agency.
    These positive results reflect the culmination of a 
persistent multiyear effort by our employees, the National 
Treasury Employees Union, and the SEC's leadership team in 
working together to create an environment that engages 
employees and supports their commitment to excellence on behalf 
of America's investors and our markets.
    The mission of the SEC is to protect investors, maintain 
fair, orderly, and efficient markets, and facilitate capital 
formation. To achieve this mission, we rely on an exceptionally 
skilled and dedicated workforce of over 4,700 employees in our 
Washington, D.C. headquarters and 11 regional offices located 
throughout the United States.
    The SEC's staff includes economists, accountants, security 
compliance examiners, attorneys, quantitative analysts, 
information technologists, and administrative and operations 
personnel. Through their efforts our employees strive every day 
to promote a market environment that is worthy of the public's 
trust.
    The Office of Personnel Management administered the 2016 
survey at the SEC in May and June of last year. More than 76 
percent of the eligible workforce shared their views by 
completing the survey. The response rate was our highest 
participation rate to date.
    Notable results from the survey include the 2016 results 
increased for 69 out of 71 questions, with the average increase 
of four percentage points. The SEC now ranks in the top 10 in 
most best places to work categories, including worklife 
balance, training and development, strategic management, and 
effective leadership.
    The SEC also ranks in OPM's--third in OPM's global 
satisfaction index, with an 18 percent improvement compared to 
2012. We also saw an 11 percent increase in both OPM's employee 
engagement index and the new inclusion quotient index.
    The SEC's 2016 score is the highest in our agency's 
history, and we are now ranked in the top 25 percent of mid-
sized agencies. It has taken 5 years of effort by SEC 
management, our union representatives, and SEC employees at 
every level and across every division and office to achieve 
this progress. Our experience shows that any change of this 
magnitude cannot begin nor succeed without significant buy-in 
at the top and without significant involvement and constructive 
engagement from rank-and-file staff and their representatives.
    As a result of numerous meetings with senior managers, 
listening sessions with employees, focus groups and employee 
suggestions, the agency chose to focus on the following 
initiatives: Improving communications across the agency and up 
and down the management chain, greater recognition of employee 
contribution to the mission, and better leadership development 
and employee training opportunities.
    While we are very pleased with our results, we know there's 
always room to improve. We know that we still have work to do, 
and we will continue our collective efforts to demonstrate our 
values of integrity, effectiveness, fairness, accountability, 
teamwork, and excellence; foster communication, collaboration, 
and transparency; and empower our employees to carry out the 
SEC's mission on behalf of American investors.
    We believe that the annual Federal Employee Viewpoint 
Survey is an important tool that provides a snapshot of the 
opinion of our employees. While the results and rankings are 
informative, they are only the starting point. The real work 
begins when we hold meaningful discussions with leadership 
teams to help them understand their results, create action 
plans, and follow through on how those plans can help our 
employees be efficient and productive.
    Mr. Chairman, thank you for the opportunity to share with 
you the everyday efforts of my colleagues to make the SEC one 
of the best places to work in the Federal Government. I welcome 
any questions.
    [Prepared statement of Ms. Dingman follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    Mr. Meadows. Thank you. And if you would please communicate 
the same message to the employees at the SEC, that we 
appreciate their service to our country and to those that they 
serve each and every day. Thank you for your leadership.
    So they have called votes, Ms. Bailey, so you're going to 
get a reprieve for right now. And we've only got about 6 
minutes left. There are two votes, possibly two votes, maybe as 
few as one. So for planning purposes, if you want to go get 
coffee, do whatever you need to do, you don't have to hang out 
here. We'll reconvene, but we will not reconvene any earlier 
than 10:40. And so at this point, I just wanted to let you know 
that for planning so you can go get coffee, do whatever you 
need.
    So the committee will stand in recess, subject to the call 
of the chair.
    [Recess.]
    Mr. Jordan. [Presiding.] The committee will be back in 
session.
    The gentleman from--and I apologize for my attire. I didn't 
think I was chairing this. We were in another meeting, but the 
chairman asked me to come in and get things started.
    So the ranking member, Mr. Connolly, from Virginia, will be 
recognized for his 5 minutes.
    Mr. Connolly. Thank you, Mr. Jordan. And this is what 
happens when we have a hearing the morning of the last day of 
the session.
    I think I'm going to forego my opening statement, Mr. 
Chairman, so we can continue with uninterrupted testimony, 
other than to simply say, I think it is important that we have 
this public hearing of best to worst places to work; but more 
importantly, how can we improve, what can we do to try to 
improve the workforce.
    And I think looking forward, most of the agencies have, in 
fact, made marked progress, and I hope that can be sustained in 
the current environment. But as we look to the future, 
something like 34 percent, Max, of the existing civilian 
workforce is eligible for retirement in the next few years, 
right? And so recruiting their replacements and being able to 
retain them is, you know, a challenge. And I think that 
requires streamlining personnel processes; I think it requires, 
you know, bringing human resources into the 21st century; and I 
think it requires some real reflection on our part up here in 
the Congress in terms of how we make our workforce a better 
workforce, a better environment in which to work where 
employees feel valued and can seriously contemplate making a 
career or at least part of their career in Federal service.
    So I think that's really what this is about, and I look 
forward to hearing from the testimony.
    Thank you, Mr. Chairman.
    Mr. Jordan. I thank the gentleman.
    We now go to Ms. Bailey, I believe you're up next, and you 
get your 5 minutes.

                   STATEMENT OF ANGELA BAILEY

    Ms. Bailey. Thank you, sir.
    Chairman Jordan and Ranking Member Connolly, thank you for 
the opportunity to appear before you today to address our 
efforts to enhance employee engagement at DHS. Last year, I 
testified that we had a strong and pragmatic strategy and that 
we would improve.
    We analyzed the data and held discussions with leaders and 
employees. And based on that collection of work, we focused our 
efforts in three areas: One, select and empower high-performing 
leaders; two, develop excellent leaders at all levels; and 
three, communicate in a powerful way that connects the 
workforce.
    We implemented our strategies through top leadership 
involvement, component-specific action plans, and the employee 
engagements during committee. We hold component leadership 
accountable, we review our progress and make adjustments 
through our semiannual reviews, and, in fact, we just completed 
our last review.
    These efforts resulted in a 3 percent increase in the 
employee engagement index scores. According to OPM, this level 
of improvement is statistically significant. By contrast, the 
governmentwide employee engagement index went up 1 percent.
    All of our components, except one, improved their employee 
engagement index scores: ICE up 7 percent, CBP up 4 percent, 
U.S. Coast Guard up 4 percent, USCIS up 3 percent, FEMA up 3 
percent, and U.S. Secret Service up 1 percent. Regarding the 
best places to work scores, DHS increased by 2.7 points, 
whereas the governmentwide average went up 1.3 points.
    While some may say you're still at the bottom of the best 
places to work rankings, it's important to put these rankings 
into greater context. Some DHS components by themselves are 
larger than the large agencies on the best places to work list. 
U.S. Coast Guard, USCIS, and FLETC all have best places to work 
index scores above the second-ranked large agency, Department 
of Commerce.
    In fact, USCIS is not much smaller than the top-ranked 
NASA, and its index score is almost as high as NASA's. And when 
the Partnership for Public Service further broke down the 
rankings, the U.S. Coast Guard and USCIS are number one and 
number two, respectively, in the law enforcement and border 
protection categories of the best places to work mission area 
rankings.
    Other components, like the Secret Service, CBP, and TSA, 
all have extremely difficult jobs that place them squarely in 
the public eye, often under challenging circumstances. These 
components also have populations with limited access to 
computers, making it very difficult for these employees to 
complete the Federal Employee Viewpoint Survey.
    This is not an excuse, but it serves as context. We are 
focused on these components and are working with them and our 
leadership committee to continue the upward trend that we 
started last year. Our leadership committee is sharing 
successful practices on how best to reach our field personnel 
to increase participation in the survey and in understanding 
their needs when they are so far away from Washington, D.C.
    We are using our communications channels, including 
messaging from the Secretary, leader alerts to supervisors and 
executives, and listening tours to ensure leaders at all levels 
act as a force multiplier for us to reach the workforce 
throughout the year. And at the same time, we are focusing on 
the 2017 Federal Employee Viewpoint Survey rollout, which 
begins next month.
    Every single day, the men and women of DHS carry out 
difficult and frequently dangerous work that is often unseen by 
the American public. They do an outstanding job and have a deep 
commitment to the mission.
    Through our focused efforts to employee engagement, we are 
determined to enhance their work experience, including their 
worklife balance, and honor the contributions of our 
hardworking and dedicated workforce. Thank you again for 
supporting our employees who protect us and our great Nation. I 
look forward to answering any questions you may have.
    [Prepared statement of Ms. Bailey follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
      
    Mr. Jordan. Thank you, Ms. Bailey.
    Mr. Gardner.

                    STATEMENT OF LEE GARDNER

    Mr. Gardner. Thank you, Chairman Meadows, Congressman 
Connolly, and members of the subcommittee. I am Lee Gardner, 
managing director of the Surface Transportation Board. We 
greatly appreciate your subcommittee's strong interest in ways 
to ensure growth in employee engagement at agencies such as 
ours.
    From 2009 through 2014, the STB was ranked as the best 
small agency in the government, according to the FEVS annual 
survey. We even received accolades from entities outside the 
survey, including a spot in Washingtonian magazine's 50 
Greatest Places to Work for 2013. We took great pride in this 
distinction.
    After 6 years of being number one, our scores fell in 2015, 
placing us fifth among small agencies. In 2016, our scores 
declined further, placing the Board 16 out of 29 small 
agencies. This decline is a concern to management at all levels 
at our agency.
    Comparing scores for specific questions asked in the 2014, 
2015, and 2016 surveys, we found several key questions with 
positive scores worth noting, including balance of worklife, a 
willingness on the part of employees to put forth extra effort 
to get the job done, and the overall quality of work. These 
items scored in the 90 percent range or higher.
    We've also seen high scores in areas that depict the high 
level of professionalism and dedication of our employees, 
including, ``my work gives me a sense of personal 
accomplishment,'' ``I like the work I do,'' and ``the work I do 
is important.''
    With respect to negative responses, we fell in areas 
including the relationship between pay raises and performance, 
supervision in leadership, steps taken to deal with poor 
performers, training, and diversity.
    Over the last few years, the STB has been an agency in 
transition. Our staff has experienced a significant amount of 
change and uncertainty in the areas of leadership, 
responsibilities, and resources. These factors have no doubt 
contributed to the 2016 survey results.
    In the span of 2 years, the agency underwent a change in 
the chairmanship several times. Naturally, each change brought 
a transition from--for staff and an adjustment to new 
priorities.
    Sustained periods of constrained resources have also been a 
real challenge. Our FTE levels have been dropping, leaving the 
agency with fewer staff to fulfill the agency's workload. The 
STB's budget requests have gone largely unmet, which in turn 
puts further strain on our workforce.
    We currently have a staff of 128 FTEs, a significant 
reduction from our highest employment level of 149 FTEs in 
2010. These numbers are significant for such a small 
organization.
    Another factor that has affected the staff is the prospect 
of relocating due to a recent expiration of our lease. GSA 
notified us in 2013 that at the end of our lease in February 
2017, we could be required to relocate to a new facility. This 
has been very unsettling to staff, since during this time, we 
have not known what the full impact of relocating might be on 
their daily lives. Just this week, GSA informed us that a lease 
award should be finalized within the next 30 to 40 days.
    Finally, enactment of the STB Reauthorization Act of 2015, 
which reauthorized the Board for the first time since its 
inception in 1996, made the Board a fully independent agency 
and imposed several important directives.
    While independence has been invigorating, exciting, and 
challenging, it also marks another transition to new and 
expanded responsibilities but with expected additional funding 
assistance held up as a consequence of the ongoing continuing 
resolution.
    The Board is exploring ideas to help improve our scores, 
and most importantly, employee engagement and satisfaction. For 
example, to better understand specific reasons for our recent 
scores, senior managers exchanged insights into the possible 
causes of and discussed ways to improve. We reached out to our 
entire staff asking them to share their thoughts on issues 
contributing to the Board's scores, as well as suggestions on 
actions to improve the STB overall.
    The Partnership for Public Service recently briefed the 
board members and staff on the survey results and provided 
useful insights into the key drivers of our recent scores. To 
address scores regarding senior leadership, OPM delivered an 
executive training course to 25 senior managers, which provided 
an in-depth discussion and interactive sessions on developing 
core leadership skills, including how to effectively lead, 
communicate, build strong teams, and manage change.
    Beyond actions taken to address the survey directly, we 
have continued to provide staff with important training in 
areas of concern to our agency as well as the government. For 
example, in-person diversity training for the entire agency was 
offered last fall, sharing information about equal employment 
opportunity, increasing inclusion, respecting diversity, and 
effective communications and problem solving.
    Please be assured that as we work to fulfill the agency's 
important mission, the STB is firmly committed to improving our 
employee's work satisfaction as well. I would be happy to 
respond to any questions. Thank you.
    [Prepared statement of Mr. Gardner follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
       
    Mr. Jordan. Thank you, Mr. Gardner.
    Ms. Villalobos.

                STATEMENT OF VERONICA VILLALOBOS

    Ms. Villalobos. Thank you.
    Chairman Meadows, Ranking Member Connolly, and members of 
the subcommittee, thank you for allowing me the opportunity to 
appear before you today to discuss the Federal Employee 
Viewpoint Survey and employee engagement.
    Since 2002, the Office of Personnel Management has 
administered the FEVS. The survey is designed to provide 
agencies with valuable information----
    Mr. Connolly. Could I ask the witness to pull that 
microphone much closer because----
    Ms. Villalobos. Certainly. Is that better?
    Mr. Connolly. Thank you.
    Ms. Villalobos. Thank you.
    The survey is designed to provide agencies with valuable 
information on employee satisfaction, commitment, engagement, 
and ultimately, retention needed for driving change within an 
organization.
    Having an engaged workforce is critical to each agency's 
ability to achieve its mission of providing excellent service 
to the American people. OPM is committed to working with 
agencies to provide tools they can use to improve employee 
satisfaction and engagement.
    To assist agencies, OPM provides results from the FEVS in 
several ways. The FEVS governmentwide management report 
provides an overview of survey results and highlights notable 
agency achievements. The management report contains scores from 
industries such as employee engagement, global satisfaction, 
and the New Inclusion Quotient, or New IQ.
    In addition to the management report, OPM provides agency-
specific FEVS reports to leadership in government agencies. 
FEVS results are also made available through Unlock Talent, a 
comprehensive dashboard used to help agency leadership make 
data-driven decisions and design initiatives to improve Federal 
agencies. Unlock Talent also allows users to view FEVS scores 
across government for employee engagement and global 
satisfaction. The dashboard is customized to each agency, and 
Federal managers are able to access personalized pages for 
their departments and agencies. This powerful online tool 
assists agencies in better analyzing and understanding the data 
in order to creatively use the information in their engagement 
efforts.
    In 2016, OPM surveyed approximately 889,000 employees from 
80 agencies and over 407,000 employees responded. The 2016 
scores on employee engagement continue to increase steadily 
across government, with 65 percent of all respondents 
expressing positive views on the employee engagement index.
    The 2016 global satisfaction index results revealed
    that 61 percent of respondents reported satisfaction with 
aspects related to their work, and the 2016 New IQ overall 
index score was 58 percent. These scores all increased from the 
prior year.
    For the 2016 management report, OPM incorporated a 
comparison of the agencies by size. Because of the challenges 
or opportunities the agencies faced based on their size, these 
categories were created to further aid interagency 
communication and sharing of promising practices. In addition, 
the management report featured the key drivers of employee 
engagement that are beneficial to agencies in building and 
supporting employee engagement and performance improvement 
efforts.
    Finally, the management report highlighted promising 
practices which provided practical advice on what works to help 
agencies improve engagement and thereby performance.
    While the FEVS has been a useful tool for agencies and 
stakeholders, the full potential as a strategically responsive 
instrument has faced some limitations. Because core survey 
items were in regulation, 45 such items have not been updated 
since 2007. This has limited the ability of our research 
professionals to adjust items and make commonsense changes.
    To address these limitations, OPM initiated a revision of 
the regulation. Overall, the revised regulation permitted OPM 
to modernize the survey in alignment with topics cited in 
statute. Specifically, the effect of the revision was to reduce 
the number of prescribed survey items and remove the definition 
of leadership levels.
    In the process of revising the regulation, OPM presented 
plans for updates to multiple stakeholder groups. The final 
regulation allows OPM's professional survey experts and 
research psychologists to improve the survey while maintaining 
agencies' abilities to monitor progress and analyze trends. 
Agencies still maintain the flexibility to expand their own 
surveys and add agency-specific questions, as appropriate, to 
address their specific needs.
    OPM does not intend to make changes to the 2017 FEVS. We 
understand the reliance stakeholders and agencies have on the 
survey results. Any future updates will be done with 
stakeholder input and OPM's experts, along with survey testing 
to preserve quality and trending.
    As we prepare to release the next survey, OPM will continue 
its efforts to support agencies with meaningful improvements to 
the FEVS in order to assist agency leadership with improving 
employee engagement and performance.
    I want to thank you for this opportunity to testify, and I 
am happy to address any questions you may have.
    [Prepared statement of Ms. Villalobos follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
      
    Mr. Meadows. [Presiding.] Thank you so much for your 
testimony. My apologies, the administration had asked us to get 
back to him on health care, so I apologize. I had to have a 
real quick meeting. So----
    Mr. Connolly. Mr. Chairman----
    Mr. Meadows. Yes.
    Mr. Connolly. --before you call on our final witness, 
just--I ask unanimous consent to enter into the record a 
statement with respect to the subject from the National 
Treasury Employees Union.
    Mr. Meadows. Without objection.
    Mr. Connolly. I thank the chair.
    Mr. Meadows. Mr. Stier, you're recognized for 5 minutes.

                     STATEMENT OF MAX STIER

    Mr. Stier. Thank you very much, Chairman Meadows, Ranking 
Member Connolly. Thank you for your focus on such an important 
issue. I know life is very full and busy with all kinds of 
things, and it is a testament to your foresight and leadership 
that you are, for the third time, having this hearing, because 
it does require constant attention and oversight.
    To begin with, I think it's important to focus on why this 
matters. This is not about happy employees. This is about 
employees that can do more and better for the American public. 
And that's what employee engagement is about.
    One of the really incredible challenges of actually 
managing in the Federal Government is that you don't have real-
time performance information as you would in the private 
sector, the for-profit sector. You don't have your P&L 
statement, you don't have stock prices. The goals are public 
goals; they're not financial goals. And as a result, actually, 
employee engagement becomes even more important. In the private 
for-profit sector there is tons of data that shows improved 
employee engagement results and better performance, and that's 
even more important in the public sector.
    And we should be proud of the people that are here and the 
good work that they're doing. It's 2 years in a row you've seen 
increases. But we also need not lose sight of the bigger 
picture. And in our view of the Partnership for Public Service, 
we believe that the Federal Government should meet or exceed 
the best in class in the private sector. And today, right now, 
on the engagement scores, the Federal Government is 17 points 
lower than a reasonable private sector average. And it's not 
because Federal employees are not committed to the mission. 
Federal employees are overwhelmingly committed to the mission 
across the board in every agency.
    Bottom line, it's almost inevitably about leadership, which 
is the second root cause of challenge in the Federal 
Government. You have short-term political leaders that don't 
align to the long-term needs of the organizations they run.
    And the data is frightening. If you look at some of the 
numbers, just one-fifth of employees agree that pay raises 
depend on performances; two-thirds of employees don't believe 
promotions are based on merit; fewer than half of Federal 
employees believe that good work is rewarded. And those are not 
numbers that we ought to be proud of. These are numbers that we 
need to work on and change.
    And I would propose three things that you can do here in 
Congress to make a big difference: Number one, we need to 
modernize the FEVS statute. Very important. As I said, it gives 
the one universal metric across the board. I think it ought to 
be codified. OPM has done a phenomenal job. The statute doesn't 
currently require that OPM do it every year. It's important 
that OPM does it every year. It's cost effective. They do it 
for everybody. And it also means that you got comparative data. 
So that would be the first piece. And the second one is, in 
today's age with improved technology, this is all done 
digitally. The turnaround of the data is very important, so 
getting that data out fast would be a second area of key 
importance.
    Number two, it's always about leaders, and we need to see 
more attention paid to leadership's responsibility to manage 
talent in the Federal Government. It starts with the top. It 
starts with the political leaders. Today, the political leaders 
do not actually have a requirement to have performance plans. 
There's no transparency about what they're supposed to achieve. 
And I would posit to you that it starts at the top. You ought 
to have a requirement that all political appointments, all 
leaders have performance plans that are clear and that are 
transparent and that part of that transparency includes a 
requirement that they focus on their most important asset, the 
people in their organizations.
    Secondly, that's something that's true not just for the 
political leadership, it's true for the career folks. USDA is 
an example of an organization that actually bakes into their 
SES requirement that the SES focus on employee engagement, and 
you've seen the returns that they get from that.
    And third, I think it's incredibly important for this kind 
of oversight to take place, to make sure that hearings in this 
committee and otherwise actually ask questions of the political 
appointees to make sure they know that you're watching them and 
paying attention.
    So first is modernize the statute; second is focusing on 
the leadership issues; and the third piece, I think, is 
modernizing our civil service system. We have a system that was 
designed for a different age when government was doing 
different things, when the talent market looked differently. 
And we need to make sure that we have a system in place to 
actually manage our talent in government, whether it's to bring 
in the right talent to replace those that are leaving or to 
manage those that are already here that reflects the current 
society that we have right now.
    The Federal Government in many ways has become an insulated 
and isolated organization, and that's not good for any of us. 
And elements of the change that need to take place are examples 
like market-based pay. So you look at examples at VA, the 
medical center directors. They're paid under the SES scales, 
that means that they're making at top $170,000, $180,000. And 
you have to pay, in a private sector, $700,000, $1 million to 
find competing talent. It just doesn't work. And again, there 
will be some employees that will be paid less, some paid more, 
but it will be paid according to what the government actually 
needs to pay to get the right talent, and that would be a big 
change.
    There are a whole set of other changes that ought to take 
place in the civil service system itself, and we'd love to work 
with you in making that happen.
    I see my time is running out, but I want to say thank you 
for, really, your incredible work.
    [Prepared statement of Mr. Stier follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
     
    Mr. Meadows. Thank you, all. I want to thank all the 
witnesses for being here.
    The chair recognizes himself for 5 minutes. And so, Mr. 
Stier, let me follow up on a couple of your questions, because 
you talked about that market-based pay. And you're finding 
someone who is very willing to make sure that people are 
properly compensated, realizing that upper end sometimes is a 
barrier to attracting good talent.
    One of the big issues that we run into, and I'm highly 
sensitive to it, because I don't even think, if you wanted to 
change it, that it would be enough votes on either side of the 
aisle by themself to change it, is really the union involvement 
and what that may or may not do when you try to actually make 
it more market based.
    So can you speak to that barrier, and how do we do that 
with so many different public service unions that are in place? 
And, you know, sometimes--we all have a unified goal of 
providing good service and a good quality workforce. At the 
same time, sometimes there is a competing agenda in terms of 
what may or may not happen, and we've run into that on Postal 
and a few other areas.
    But the biggest place I'm running into it, quite frankly, 
is--I can use that--is maybe on WMATA and what we're facing in 
a bipartisan way on WMATA, because we believe that it needs to 
happen. And so I can use that as maybe a tangential evidence of 
having to address something but with real complications, 
because you've got union contracts, you've got competing--so 
how do we do that?
    Mr. Stier. Yeah. So not an easy job, and that's why----
    Mr. Meadows. That's why you threw it to me, right.
    Mr. Stier. But I think the answer, in my view, is, you 
know, first, that a lot gets cured by conversation, and I think 
that, you know, part of the need we have right now is to have 
those critical stakeholders brought together. As you said, I 
actually really believe there are common objectives. Once 
you're able to get that agreement around common objectives, I 
think that provides a framework for resolving, you know, how 
best to get there. I also think there are going to be 
opportunities, even if you don't get it done across the board 
in special places----
    Mr. Meadows. Right.
    Mr. Stier. --and an example would be the VA, where, you 
know, there are 160 of these folks. There are not that many. 
They're the most important people. They run the hospital 
systems.
    Mr. Meadows. Right.
    Mr. Stier. It just makes no sense.
    Mr. Meadows. So maybe do that as a pilot.
    Mr. Stier. You do that--and I'd be careful--the only thing 
about pilots in government is that in the ordinary course, the 
logic is you try it, if it works, then you spread it around. 
That doesn't happen in the government. You look at----
    Mr. Meadows. Oh, tell me it's not so.
    Mr. Stier. Yes. Well, no, but I mean--so you look at some 
of the pay, you know, experiments that were done, you know, in 
the military with the----
    Mr. Meadows. I agree.
    Mr. Stier. --they're 1980s, and they have good data to 
suggest that the things they did made sense. So in any event, 
though----
    Mr. Meadows. So a pilot that actually would get implemented 
systemwide if it worked?
    Mr. Stier. Yes.
    Mr. Meadows. Okay. So let me go a little bit further. If we 
look at this and we're looking at those objectives, would you 
say the fundamental reason why we don't get it as at times 
trust, the trust that if somebody's willing to give, that it 
will only be cuts and not increases?
    Mr. Stier. I think you put your finger on an important 
point for sure. I think there's an expectation that, you know, 
better to protect what one has than to take the risk of what 
may come in the future, sort of Pandora's box. But the reality 
to me is that the world is changing at an ever-increasing fast 
pace, and it's a--you know, the erosion is really substantial.
    The other trust factor here, which I think is really 
important, is trust in the managers in government, and I think 
that's a big issue. I think one of the things that you've got 
to put your arms around is how do you actually improve the 
capability of management so that there is improved trust. You 
look at the Employee Viewpoint Survey numbers, that's a 
problem.
    Mr. Meadows. So how does OPM fit into that equation? 
Because really, right now we have silos, is what I would say. 
We have OPM that's overarching, but we have silos. And it's 
kind of like in the corporate world where they look at HR in a 
less than favorable way, let's put it that way. And so they 
say, this is my domain, I'm going to operate it the way I 
think. Thank you, OPM, for giving me your guidance, but by the 
way, I've got to run it. So how do we do that?
    Mr. Stier. So if I can still keep plugging forward here, I 
would say the following: Which is I think there's way too much 
finger pointing at OPM and not enough looking in the mirror. 
Because if you point to the corporate sector, every successful 
corporate executive I know--and I know a lot of them--they view 
that talent is their job. They look to HR as being, you know--
--
    Mr. Meadows. Right.
    Mr. Stier. --there to support them, but their 
responsibility.
    I don't think you see that in the government. Agency 
leaders don't understand that that's one of their primary 
responsibilities. They're not around long enough. It's going to 
be their successor or their successor's successor that deals 
with their problem.
    Mr. Meadows. Right. Okay.
    Mr. Stier. So that's back to the performance plan piece.
    Mr. Meadows. Okay. So let me--picking up, Ms. Bailey, on 
where--in terms of our attention. I want to let you know 
something, that we were keenly aware of any statements that get 
made that talk about employee satisfaction. And so you've been 
there about a year. We've seen some good progress, and I want 
to thank you for that.
    But the other day, we got what I thought was a real 
encouraging comment by who I refer to as General Kelly, but 
Secretary Kelly, as he talked about, you know, what's going to 
specifically happen in terms of job satisfaction. He says, 
well, that's, you know, under my leadership.
    And he went on further to say, is that when he elaborated 
on it, he says that the employees feel hamstrung by former 
leadership to not allow the employees to actually do their job.
    Now, that's a theme. And I'm not trying to be derogatory 
towards any previous administration or anything else, but would 
you concur that the employees, some within DHS, feel like that 
they've never been allowed to do their job? And would you agree 
with Secretary Kelly?
    Ms. Bailey. I think it's always smart to agree with my 
boss.
    Mr. Meadows. Well, you are smart. Well, we now know why 
you've improved so much, but go ahead.
    Ms. Bailey. Absolutely.
    Mr. Meadows. So let me--would you--so let me rephrase it. 
Obviously, since you agree with Secretary Kelly, would you say 
within the ranks that you see some question among rank-and-file 
employees that they are not allowed to do the job that they 
were hired to do to its fullest capability?
    Ms. Bailey. Right. And I think that you'll see that over 
time. If you look at the FEVS scores, whether it's within DHS 
or, quite frankly, within a lot of the Federal agencies, what 
you will find is that by and large this idea around creativity, 
innovation, or the ability to not be hamstrung, right, to be 
able to do your job, I think that that's kind of with the--
almost with the age of time.
    And so I think it's very encouraging that Secretary Kelly 
recognizes that right upfront. It's not surprising to me that 
he recognizes it. And I think it's, again, very encouraging 
that we're going to actually tackle some of those issues.
    Mr. Meadows. All right. Well, thank you.
    I want to applaud both of our most improved best places 
areas, and just say that what I typically have done in previous 
hearings is ask for your commitment to actually work with other 
agencies to share best practices. Is that something that you're 
willing to do at USDA?
    Ms. Jeanquart. Absolutely. In fact, we employed some of the 
best practices we learned from other agencies to get where 
we're going. So I really think we're a community among 
ourselves, and we all--you know, we all want to see engaged and 
productive employees.
    Mr. Meadows. All right. Great.
    Ms. Dingman?
    Ms. Dingman. We are definitely committed to working with 
our fellow colleagues in the HR community. We see this as we 
all grow together and we learn as a Federal community.
    Mr. Meadows. Okay. So keeping the standard the way that 
it's been and not changing, it is critical for benchmarks. And 
so I would just--from an OPM standpoint, are we willing to keep 
our standard?
    Here's my concern: There was rumor out there that we were 
going to change the way that we looked at some of these things 
and different benchmarks. And for me, that's like changing an 
SAT score to have a different benchmark. So my score from 
generations ago can't be compared to, you know--they were much 
harder back in the old days, I can tell you, so--but can't be 
compared to SAT scores today because we changed the standards.
    And so do we have a commitment from OPM to keep a standard 
where we have a benchmark that we've had for the last 2 or 3 
years and keep it in place?
    Ms. Villalobos. So OPM intends to continue to work to 
illuminate the topics that are within statute. As you know, we 
did go through the regulatory change. We've done a better job 
of matching the questions that are within the topical areas to 
the statute. We want to make sure that we're able to modernize 
based on survey science, but we are going to continue to work 
with agencies and stakeholders as we move forward.
    Mr. Meadows. Okay. That's a great answer. So let me be more 
specific then. Don't change the standard, okay. And so I'm all 
for modernization and all that, but I don't want a benchmark 
that lets me have Ms. Bailey's score next year be different 
than her score for the last couple of years. I have to have the 
same benchmark. Can I get the commitment from OPM that they're 
willing to do that?
    Ms. Villalobos. We will continue to use the same indices 
and work with our stakeholders moving forward to make sure that 
we----
    Mr. Meadows. That's a great answer to a question I didn't 
ask.
    Ms. Villalobos. Okay.
    Mr. Meadows. Okay. And so let me be blunt. I need a 
commitment to keep the same standards. And so if you can't give 
that today, I would ask you to get with your staff and get back 
with our staff within the next couple of weeks on how you plan 
to help me understand how to look at it going forward.
    Ms. Villalobos. Thank you, Chairman. We will get back with 
you based on your request.
    Mr. Meadows. All right. Thank you so much.
    I recognize the ranking member.
    Mr. Connolly. I think you can understand the concern of the 
chairman, and I share it. If we start changing the baseline 
against which we measure best of work, you know, we all become 
one happy paradise in the workers', you know, republic, and 
everyone is happy, and we've got new standards that shows it. 
And we don't really want to go there. The purpose of these 
metrics is really to try to gauge where we are and make 
appropriate improvements. So I would echo what the chairman had 
to say.
    Ms. Jeanquart, USDA showed marked improvement in the 
indices in front of us, and it seems to me that one of the 
things that improved was communication and also worklife 
flexibility. So the creation of Employee Advisory Councils 
seemed to foster a lot more dialogue in both ways, and I think, 
frankly, your embrace of telework is symptomatic of a more 
flexible workplace approach. Your comment.
    Ms. Jeanquart. We--absolutely. What we heard from our 
employees was worklife flexibilities were important for us. We 
have increased the number of eligible employees that are able 
to telework. At the same time, we've also trained our 
supervisors to manage employees who telework to make sure that 
they continue to remain as productive. So those flexibilities 
have really contributed to our scores.
    We have about 86 percent of our employees that are on 
flexible work schedules as well. So the ability to meet the 
worklife challenges has been helpful; but at the same time, 
we're also seeing increases in productivity. And we've seen 
that in the way that we delivered our last farm bill, on time, 
early, in many programs, and all of that has contributed.
    Mr. Connolly. Yeah. I always felt in management in the 
private sector that productivity at the end of the day is what 
I care about. So for example, if your job is to write 
proposals, and I'm looking at hit rates, and, you know, you're 
getting 90 percent hit rates, when you write a proposal, we're 
going to get it. I don't care if you do it in your PJs watching 
soap operas at home, you know.
    It's sort of the management principle of Lincoln. When 
people criticized Grant for drinking, he said, really, I want 
to know what brand of whiskey he drinks, and I'm going to send 
a barrel of it to all of my generals, because he wins.
    So there's a certain, you know, bottom line to what we do, 
I hope, where we're looking at what matters, not the ephemeral. 
I mean, you know, whether I'm there from 9 to 5 is a way of 
getting to the productivity, but it's not a substitute for the 
productivity.
    Mr. Stier, thank you for the lozenge, by the way. One of 
the criticisms--and one of those things I think from--when 
people from the private sector look at the Federal Government, 
not just the Federal Government, other governments too, it's 
rule driven, it's rule bound. It's a very juridical environment 
that seems to stifle sometimes creativity, seems to minimize 
performance with all the protections. And over the years, for 
all the best reasons, we've got even more protections for our 
various classes of workers that sometimes allows them to escape 
accountability.
    And when you do that, it has a demoralizing effect on 
people who want to be productive workers and see, witness, you 
know, the protection of or turning a blind eye as a manager 
because it's just too difficult, and I don't want to get into a 
suit or an action or be known as the guy who cracked down on 
somebody. I think that's a real problem in government.
    And I fully support due process and I support a vibrant 
civil service, but I think sometimes it's just become so 
hidebound and rulebound that it's brittle, and it's not the 
model we need moving forward. And I wonder if you could comment 
to that.
    Mr. Stier. I think you're 100 percent correct, and I think 
a lot of it stems from the point you began with, which is 
losing sight of what the objectives are. And one of the ways 
that I think we need to move the Federal Government is to be 
more focused on the customer experience and less on the 
process.
    And Ms. Bailey said something that I think is very 
important earlier about the sense of employees being encouraged 
to do things in a more innovative way. And if you look at the 
data, again, so important, because otherwise it's just 
anecdote, I feel encouraged to come up with new and better ways 
of doing things.
    Federal employees, it's 56.8. The private sector benchmark 
on that is 77. And, again, there's no reason why we should have 
that kind of discrepancy, other than, in my view, poor 
leadership, and that's what we need to change.
    We do live in a world in which it has become much more of a 
spoke, and that's why the broader changes need to take place. 
We have a pay system that's all about internal equity but not 
connectivity to the larger talent market, and we need that. It 
needs to be--Ms. Bailey, again, was talking about some of the 
things that she's doing, which I think are very, very important 
at DHS, that are allowing them to think more creatively about 
how to address the individual as opposed to the broader class.
    And interestingly, you know, there's a lot of discussion 
about how regulation is stifling people on the outside of 
government. I think it's stifling the employees themselves, in 
that we ought to see the same kind of de-encrustation 
internally that's necessary. The tendency is to put things on 
top, not think about how they interrelate or whether they're 
still valuable. It's--again, it's a legacy institution. So 
that's why your engagement involvement is so critical.
    And the people here, you know, there's no one who knows 
what needs to change better than the people that are having to 
experience it day in and day out. So getting that input into 
your process, to me, seems vital.
    Mr. Connolly. Can I just ask one skunk-at-the-picnic 
question?
    So we have made progress, but if you look at the budget the 
President has submitted to the Congress--let's take USDA, Ms. 
Jeanquart--it will cut 21 percent, $4.7 billion; reduce staff 
at USDA Service Center Agencies throughout the country; 
eliminate the water and wastewater loan and grant program; cut 
$95 million from Rural Business-Cooperative Service; cut $200 
million from Women, Infants, and Children nutrition; and cut 
another $200 million from the McGovern-Dole International Food 
for Education Program.
    Do those cuts have any impact on what we're talking about 
here? Could they influence these metrics when we meet again a 
year from now?
    Ms. Jeanquart. I think they can, but I also think employee 
engagement can help us as we move forward. USDA's faced budget 
cuts before, and we've used interaction with our----
    Mr. Connolly. Ms. Jeanquart, just one second. You've faced 
budget cuts. Have you ever faced a 21-percent budget cut?
    Ms. Jeanquart. No, we have not.
    Mr. Connolly. No. Right. We need to put it in perspective 
here. Budget cuts are one thing.
    Ms. Jeanquart. Right.
    Mr. Connolly. I mean, of course--and you're a piker 
compared to EPA.
    Ms. Jeanquart. Right.
    Mr. Connolly. Imagine the morale over there, with a 31-
percent cut.
    Mr. Stier, final question. The chairman's allowed me to go 
over my time. Impact magnitude of those kinds of cuts--and I 
don't think Congress, frankly, is going to entertain them, but 
nonetheless they're out there. They're a new baseline for 
somebody; hopefully not Congress. But does it have an impact on 
what we're talking about here?
    Mr. Stier. So it clearly has an impact.
    I think of even greater impact is the uncertainty that's 
been created. And I think that is fundamental. And so, if you 
don't mind me being the skunk in the picnic here, you know, the 
last 6 of the last 7 years, you know, the executive branch 
hasn't been able to operate on any budget; there has been no 
budget. You know, we're talking, you know, 2018 right now. 
2017, these agencies don't know how much money they have.
    And so, if you think, again, about any other organization 
in any other context, the idea that they could manage 
effectively and achieve results without knowing what their 
resource base is, is impossible.
    And my view would be, you know, uncertainty is the most 
corrosive of all in terms of diminishing, you know, capability. 
And this is true right now with respect to budget, it's true 
with respect to the hiring freeze. Just not--it's not--those 
are not the effective ways to get best value for the American 
people, in my view.
    Mr. Connolly. Thank you.
    Thank you, Mr. Chairman.
    Mr. Meadows. I thank the gentleman.
    So the chair recognizes himself for a few followup 
questions here.
    And so, Mr. Gardner, you've gotten off fairly easily so 
far, and I know that you may be squirming in your chair. I'm 
not going to let you off that easy, as you can well imagine. 
Because I think part of this is, you know, carrot and the 
stick. And the gentleman to my right is talking about the 
carrot. And I'm willing to work in a bipartisan way. 
Ultimately, I think the budget that we pass will be not as 
impactful as perhaps some are concerned about today in those 
areas, and yet we do have fiscal constraints.
    And so, Max, your point of needing a budget, needing 
direction, I've been one that believes that we need to do that 
on a congressional basis, is do 2 years, so that, you know, 
where you have that, where there's some--you know, long-range 
planning in the private sector is 5 to 10 years, you know, and 
long-range planning here is 9 months. And it just--it's 
troubling. And so I get your point.
    But, Mr. Gardner, I guess I'm--in spite of some of the 
things that we're talking about, really this survey was from 
back in last year, so the hiring freeze was not in place. This 
was back, taking survey results from last summer. And yet we 
saw a 21.9-point drop in your agency.
    And I guess the two troubling areas was really more about 
the employee involvement and empowerment and then leadership, 
management leadership, and those two categories. So that's not 
as much with financial/fiscal restraints as it is management 
initiatives. So help me explain why we went backwards on that.
    Mr. Gardner. Yes, Mr. Chairman. As I said, we're very 
concerned about the decline, and we were very surprised----
    Mr. Meadows. That makes two of us, so go ahead.
    Mr. Gardner. We were very surprised. And, on reflection, I 
do----
    Mr. Meadows. That concerns me even more, okay? So I'm going 
to interrupt you.
    Mr. Gardner. Yes.
    Mr. Meadows. If you're surprised by the results, it shows 
that we have a lack of understanding of the rank-and-file--I 
mean, it's one thing to acknowledge that you have a bad 
problem. Ms. Bailey does that. She acknowledged that they've 
been at the bottom of the barrel, and so she recognizes that. 
But to be surprised, you know, really concerns me. Why would 
you be surprised?
    Mr. Gardner. Well, to explain further, we had the drop 
between 2014 and 2015, which was not a dramatic drop. It took 
us to fifth place, and some of the results we saw were still 
positive results.
    But I guess to explain, I felt and I think most of the 
management at the agency felt that we were continuing to do a 
good job with engagement.
    I agree with Mr. Stier that it starts with leadership, and 
we did not do well on our effective leadership scores across 
the board. I think that's an area where we definitely need to 
focus. I think it also includes the need to do a better job of 
communicating with our staff and keeping the staff informed. In 
the followup that we've done, we found that that's one of the 
things that staff were concerned about.
    They're also very concerned, as I mentioned, about the 
changes. And the changes I was referring to in my statement 
weren't related to the freeze, but they were related to things 
related to in terms of leadership, change in leadership. As I 
mentioned, we had a change in chairmanship. Over 3 years, we 
had three different chairmen.
    We also have a lot of uncertainty associated with the move 
and the relocation, which has been very unsettling to staff 
because they're really not sure what's going to happen there 
with regard to the relocation of the agency. And we still don't 
know, even to this point. We've been working with GSA for over 
3 years on this, and there's been a lot of uncertainty and 
unsettled feelings about that.
    Mr. Meadows. So help me understand. What uncertainty are 
you talking about? The fact that you may get a new chairman?
    Mr. Gardner. Well, I guess it's just the fact that we've 
had the change--we've had three different chairmen.
    Mr. Meadows. But, Mr. Gardner, with all due respect, this 
has nothing to do with just one person.
    Mr. Gardner. Understood.
    Mr. Meadows. A 6.9- or almost 7-percent drop in employees 
thinking that leadership is not fair is not a problem of one 
person.
    Mr. Gardner. No, I agree, sir. I agree. In fact, when I 
talk to----
    Mr. Meadows. So are you surprised by that, that they think 
that leadership is not fair, that management is not fair?
    Mr. Gardner. I am surprised at that, because I think we are 
fair. I think, as a leader at the agency, I think we do a good 
job.
    Mr. Meadows. All right. So let me push back a little bit. 
It doesn't matter what you think.
    Mr. Gardner. That's correct.
    Mr. Meadows. It matters what the rank-and-file thinks. And 
that's the whole reason why you have an employee survey. You 
know, I can think I'm the most fair person in the world, and if 
he says I'm not, his perception is reality to him.
    And so how do we address that? I mean, if you're thinking 
that everything is kumbaya, I mean, how do we fix the problem?
    Mr. Gardner. Well, obviously, sir, we realize now that it's 
not the way we would like it to be. And----
    Mr. Meadows. So when did you realize that?
    Mr. Gardner. Well, when we saw those scores.
    Mr. Meadows. All right.
    Mr. Gardner. When we saw the second set of scores.
    Mr. Meadows. So when did you see the second set of scores?
    Mr. Gardner. Well, I guess they came out in December.
    Mr. Meadows. Okay.
    Mr. Gardner. December.
    Mr. Meadows. So what did you do?
    Mr. Gardner. Well, we met with the Chairman; the senior 
leaders met with the Chairman. We talked about the kinds of 
things that we did poorly on and talked about things we might 
do to improve the scores, including better and more 
communication, better sharing of information. This was one of 
the things----
    Mr. Meadows. So if we did this new survey today, would it 
be better?
    Mr. Gardner. I think that it would. I think we have----
    Mr. Meadows. Of course, you think everything is all right 
already, so, I mean----
    Mr. Gardner. I don't mean to say that, no.
    Mr. Meadows. So what we have here is not a failure to 
communicate. And that's what everybody runs backs to and says, 
``Well, if we just had more communication, we would be okay.'' 
But you and I are having communication right now, and it 
doesn't necessarily make it pleasant for either one of us.
    So here's where we have to go, is we have to figure out how 
to empower your rank-and-file, how to make sure that it's fair. 
Normally, when I see scores like this dropping on fairness, it 
has to do with promotions, bonuses. And, I mean, it comes down 
to, really, are they feeling empowered, do they get special 
assignments.
    So this would indicate that there's a problem within your 
leadership ranks of not actually responding appropriately to 
the rank-and-file. Would you agree with that?
    Mr. Gardner. I would. I would.
    Mr. Meadows. So who's going to get--we won't say 
``terminated.'' Who's going to get some correctional direction?
    Mr. Gardner. Well----
    Mr. Meadows. Have you already identified those people?
    Mr. Gardner. Pardon me, sir?
    Mr. Meadows. Have you already identified the people?
    I mean, because if you do the surveys, you can probably 
figure out where you have a problem. So have you identified the 
areas where you have management problems?
    Mr. Gardner. Well, I think--we don't do individual--we 
don't get results back from individual components because we're 
so small. So I would think that it would be the responsibility 
of all of the senior executives, all of the office directors, 
to take the lead----
    Mr. Meadows. Very good.
    Mr. Gardner. --bear the responsibility----
    Mr. Meadows. So what have you done?
    Mr. Gardner. Well, we have----
    Mr. Meadows. Other than talking, what have you done?
    Mr. Gardner. Well, we've asked employees for suggestions on 
ways that we could improve----
    Mr. Meadows. How many suggestions did you get?
    Mr. Gardner. Well, we've gotten probably hundreds of 
suggestions.
    Mr. Meadows. How many have you implemented?
    Mr. Gardner. Well, we haven't implemented any yet. We're 
simply----
    Mr. Meadows. Therein is the problem, Mr. Gardner. When you 
get information from rank-and-file employees and you do nothing 
with it, there is a problem. Then they think that their opinion 
doesn't matter. Wouldn't you agree with that?
    Mr. Gardner. Well, I would agree, sir, but we are trying to 
convince the employees that their----
    Mr. Meadows. So don't you think it would be a good idea for 
the ranking member and I to come and have a visit with some of 
your rank-and-file employees and maybe hear firsthand?
    Mr. Gardner. That would be terrific.
    Mr. Meadows. All right. So----
    Mr. Gardner. You'd be more than welcome.
    Mr. Meadows. --we're going to do that, and we'll get that 
set up.
    So at what point do you put in a leadership plan to make 
sure that people feel like they're being treated fairly?
    Mr. Gardner. Well, we're going to address that----
    Mr. Meadows. When?
    Mr. Gardner. --directly. Within the next month, sir.
    Mr. Meadows. All right. So you'll report back to this 
committee within 30 days of a plan on how you're going to 
address the fairness issue with regards to your management and 
your rank-and-file. Is that correct?
    Mr. Gardner. Yes, sir, we will.
    Mr. Meadows. That's fair. Actually, that's a very 
aggressive timeframe. You know, we'll give you--how about 45 
days? I think if you're trying to do it in 30--I don't want you 
to overcommit there.
    Mr. Gardner. We could certainly give you a progress report, 
but 45 days would be fine.
    Mr. Meadows. Okay.
    And so, in doing that, here's what I need to see, Mr. 
Gardner. I want to see these scores go up, but it's not for the 
scores' sake. I want to see those employees become most 
improved.
    And just like Ms. Bailey is here today--I'm not celebrating 
the fact that she is still low down on the totem pole. She's 
got a huge organization, so, you know, it's like a big 
steamship, trying to move it. But the fact is she's here today 
because we're recognizing that she has made progress. And I'm 
willing to do the same thing. In fact, I would love to eat crow 
or humble pie, either one that you want to serve, when you 
address these problems.
    But we will have them addressed. Do you agree with that?
    Mr. Gardner. Yes, sir, I do.
    Mr. Meadows. Okay.
    So let me close with this. I want to make sure, from an OPM 
standpoint, that my request of you is not to be derogatory in 
anything. In fact, if anything, I think we need to update the 
way we do surveys. In fact, I would love to see it where 
they're going online, and the minute that they've finished it, 
it gives them a percentage of where they are and how they're 
doing.
    I mean, I think that that would--we call it in the internet 
``clickbait,'' but I can tell you, I will fill out a survey 
more accurately if I see the results immediately after I finish 
it, even though somebody may be finding, you know, information 
on me personally.
    And the same thing happens with employees. If they can fill 
out all the surveys and they can say, Oh, my goodness, you 
know, this is where it is, it does two things: If the trend is 
going the wrong way, they will tell other friends, Can you 
believe everybody thinks it's good when it's really bad? Or if 
it's good, or bad, they will go the other way. So you get 
better feedback. It's sometimes perverted a little bit because 
people--you know, you may get somebody who wants to go and say, 
Well, you know, they're saying leadership is good, it can't be 
good. But I think you get better feedback if we can do that.
    So I'm all with you on modernizing, and yet, at the same 
time, let's make sure we keep the same standards.
    And I'll give the last set of questions to my good friend 
from Virginia, and then we'll close out.
    Mr. Connolly. Just remember, if we go online, Ms. 
Villalobos, it will be read in Moscow and Beijing.
    Max Stier, I just wonder if you want to maybe use this 
opportunity to just give us some parting thoughts here. What's 
the utility of this kind of survey? And have we been able to 
use the survey to make measurable progress, both in performance 
and productivity and morale?
    Mr. Stier. So, look, I think there are obviously things 
that can be improved, and we've made some suggestions. But it's 
worth taking a step back and remembering that you don't have to 
go back many years in which the only information you had about 
what was happening inside these agencies were some small number 
of employees coming to you anecdotally and telling you what's 
going on. The old saw ``you can't manage what you don't 
measure'' is true. And it's one of the fundamental challenges 
of managing in the Federal Government, is that lack of 
universal, real-time performance information.
    And I think Chairman Meadows has it right, that there are 
some really interesting opportunities. This is a once-a-year 
survey. It ought to be done once a year. It's a great way of 
creating a benchmark. It's important for us to remember it's 
not just about the Federal Government. The larger talent market 
is the one that the government's fishing in, so you've got to 
compare it to the larger talent market.
    But there's opportunities to do poll surveys, to do things 
that are real-time, not, you know, the 84 questions here, but 
when an issue is identified, to be able to pull out two, three, 
four things and then to ask your employees in real time whether 
or not you're making progress so that you're not waiting, you 
know, for that full cycle.
    So there are ways to, I think, improve capability here and 
consequence. You asked, is it making a difference, and I think 
the answer is yes. I think if you look down this table, all 
these folks here are working very hard because there is a data 
point that they're being held accountable to, and it's actually 
the right data point, what their employees have to say.
    And, again, Chairman Meadows is right, is that it is not--
people sometimes--``Well, it's subjective data.'' But it is the 
objective subjective data. Because it matters what employees 
actually have to--what they think.
    And this is a rich data set. Again, it's about whether 
they're being supportive and being innovative, whether they're 
getting the right talent into their organization. You know, I 
think that OPM is right, they are opportunities to collect some 
other different things, but we do need to have that common 
baseline across the board.
    I think if this kind of hearing was had across the board, 
in all the different committees of jurisdiction who have 
supervisory responsibility, you would see 10X impact. And so, 
you know, one question would be, is there a way to help make 
that happen?
    I think the idea that you both might visit, you know, 
Surface Transportation Board, you go out and visit other 
agencies, is phenomenally important for you to get real 
information about what's going on inside these agencies.
    I mentioned earlier that I think that the lack of real-time 
performance information, short-term leaders not aligned to 
long-term missions are two of the root causes of dysfunction in 
our government. The third one that to me is real is I don't 
think Congress is doing everything it ought to do. And it's in 
the oversight, it's in the budgeting. And kudos to you on 
biennial budgeting. Giving some longer-term peace would be 
hugely important. But that's another area of huge, huge impact 
on what the government can produce for the American public.
    So thank you for that opportunity.
    Mr. Connolly. And one final question on this. You know, STB 
is a small agency. How many people, Mr. Gardner?
    Mr. Gardner. 128, sir.
    Mr. Connolly. Okay. So if you do a survey of 128 people, 
you probably get a pretty good picture from the survey in terms 
of what's on people's minds, what's bothering them and so 
forth.
    But you look at DHS, and it is a many-splendored thing. I 
mean, you know, after 9/11, we cobbled it together. I remember 
it quite vividly. And you've got, you know, all kinds of 
different agencies with different kinds of missions under one 
roof--with how many employees totally, Ms. Bailey?
    Ms. Bailey. It's around 230,000.
    Mr. Connolly. 128; 230,000.
    And how many agencies are cobbled together under that?
    Ms. Bailey. I think originally it was 22 agencies.
    Mr. Connolly. Twenty-two agencies.
    So I worry a little bit about--I mean, there is a 
difference between these two, not only in sheer numbers but 
just the complexity of it. And is there some reason to be 
concerned about the data we're getting from the one versus the 
other, not because it's corrupted but just because it doesn't 
really take cognizance of the differentiation of missions and 
cultures?
    Mr. Stier. Yeah. So one of the reasons why we do best in 
class, best agency in large agency and medium agencies and 
small agencies, is for the reason you identified: It is a very 
different management proposition. And at the end of the day, I 
think the ranking actually helps bring attention. This is a 
society that cares about ranking; competition is actually a 
good thing. But it is still the case, as you suggest, that 
there are different management challenges depending on the 
organization.
    However, people are people. And if you listen to the kinds 
of things that people are doing across the board here, they're 
largely the same. The activity--it's harder to move your 
steamship, the bigger piece, but the activities are the same. 
And for DHS, they've got to break it down into their 
operational components to make it work.
    I do think the risk, though, is that everyone wants to 
believe they're special and different. And while there is some 
element of that, there's also a lot of similarity. And we don't 
do enough in the Federal Government of actually learning from 
each other. And part of it, we don't do enough on mobility of 
talent. Because that's really the way you're going to actually 
knit it all together, is getting people to be working and 
moving, especially at the leadership side.
    Mr. Connolly. Yeah. Fair point. We heard that a lot in the 
IT sector. Mr. Meadows and I both worked on--you know, ``Our 
mission is unique, and therefore we can't''--fill in the 
blanks, you know, move from the legacy system, move to the 
cloud, whatever it might be.
    And you think, well, at a certain point, though, data is 
data. And there are lots of, you know, confidentiality concerns 
or classified concerns that have to be taken into account, but 
the management of data is generally something that can be 
applied across the board. So I take your point.
    I thank you. Thank you all for being here today.
    Thank you, Mr. Chairman.
    Mr. Meadows. I thank the gentleman.
    And I'd like to thank all of our witnesses that are here 
today and thank you, even those that, Mr. Gardner, are going to 
put forth a plan to make things better.
    Kudos to all of you who have really recognized the 
importance of the Federal workforce and what they contribute. 
And so, as much as you're here to testify on behalf of your 
agencies and the progress that has been made, the real thank 
you needs to go to the employees who not only participate in 
the survey but also do the work each and every day.
    And so I look forward to following--and I can tell you, I 
do follow this. I follow it very closely. And part of it's just 
I love to see the competitive nature, and I love to see how 
everybody's waiting for those scores to come out and where they 
are and the recognition that comes from that. You know, when 
the schedule permits, we love to participate and celebrate a 
success.
    And so, from your predecessor, Ms. Bailey, who encouraged 
me to look at this in a positive light, it has changed this 
hearing, because we truly do try to focus now on the good 
practices.
    I think one of the matrix that might be interesting to add, 
from an OPM and a survey standpoint, is how much agency-to-
agency participation there is, you know. And so, as we look at 
that--so the fact that you've learned from other agencies, the 
fact that you're sharing that knowledge with others, that 
should be a score component that actually weighs in, because we 
want to share those best practices.
    And so, as I say that, I want to thank you.
    I ask unanimous consent that all the members of the 
committee have 5 legislative days to submit questions for the 
record.
    Without objection, so ordered.
    So, if there is no further business, the committee stands 
adjourned.
    [Whereupon, at 11:48 a.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                [all]


</pre></body></html>
